                           U.S. DEPARTMENT OF ENERGY
                          OFFICE OF INSPECTOR GENERAL




                  REPORT ON MATTERS IDENTIFIED AT THE
                        IDAHO OPERATIONS OFFICE
             DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
           CONSOLIDATED FISCAL YEAR 1999 FINANCIAL STATEMENTS




Report Number: WR-FS-00-02                       Western Regional Audit Office
Date of Issue: March 20, 2000                    Albuquerque, New Mexico 87185
                   REPORT ON MATTERS IDENTIFIED AT THE
                         IDAHO OPERATIONS OFFICE
              DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
            CONSOLIDATED FISCAL YEAR 1999 FINANCIAL STATEMENTS



                                TABLE OF CONTENTS



                                                                                      Page

               SUMMARY… … … … … … … … … … … … … … … … … … … ..… … … …                  1

PART I -       APPROACH AND OVERVIEW… … … … … … .… … … … … … … … …                     2

               Introduction… … … … … … … … … … … … … … … .… … … … … … … … .            2

               Scope and Methodology… … … … … … … … .… … … … … … … … … … ..            2

               Observations… … … … … … … … … … … … .… … … … … … … … .… … …             3

PART II -      AUDIT RESULTS… … … … … … … … ..… … ...… … … … … … … … … ..              4

               Environmental Liabilities: Duplication of Costs for the Test Reactor
               Area… ..… … … … … … … … … … … … … … … … … … … … … … … … …               4
                               U.S. DEPARTMENT OF ENERGY
                              OFFICE OF INSPECTOR GENERAL
                                OFFICE OF AUDIT SERVICES
                             WESTERN REGIONAL AUDIT OFFICE


                    REPORT ON MATTERS IDENTIFIED AT THE
                          IDAHO OPERATIONS OFFICE
               DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
             CONSOLIDATED FISCAL YEAR 1999 FINANCIAL STATEMENTS



Audit Report Number: WR-FS-00-02

                                              SUMMARY

        The Government Management Reform Act of 1994 requires that the Department of
Energy (DOE) annually submit audited financial statements to the Office of Management and
Budget (OMB). A departmentwide audit was conducted to determine whether there was
reasonable assurance that DOE's consolidated Fiscal Year (FY) 1999 financial statements were
free of material misstatements. We conducted a portion of the departmentwide audit at the Idaho
Operations Office (Idaho) and its then management and operating contractor for the Idaho
National Engineering and Environmental Laboratory (INEEL), Lockheed Martin Idaho
Technologies Company (Lockheed).1

         The audit at Idaho and Lockheed disclosed a duplication of costs in the Environmental
Liabilities account. During FY 1999, Lockheed elected to reclassify costs for 28 facilities from
one portion of the account to another. However, costs for only 20 of those facilities were
removed from one portion of the account while costs for all 28 facilities were added to the other
portion of the account. Thus, $52.2 million of costs for eight facilities were duplicated in the
account.

       We recommended that Idaho adjust the account to eliminate the duplicated costs. Idaho
agreed with the finding and recommendation and took corrective action to adjust the FY 1999
balance.




                                                         _______________________
                                                          Office of Inspector General


1
  On October 1, 1999, Bechtel BWXT Idaho (Bechtel) replaced Lockheed as the management and operating
contractor at the INEEL.
                                               PART I

                                  APPROACH AND OVERVIEW


INTRODUCTION

       The Government Management Reform Act of 1994 requires that audited financial
statements covering all accounts and associated activities of DOE be submitted annually to OMB.
A departmentwide audit of the consolidated FY 1999 financial statements was conducted by
examining internal controls, assessing compliance with laws and regulations, evaluating
accounting transaction cycles, and testing selected account balances at various DOE facilities.

        The objective of the departmentwide audit was to determine whether DOE's consolidated
financial statements presented fairly, in all material respects, the financial position of DOE as of
September 30, 1999 and 1998, and its consolidated net cost, changes in net position, budgetary
resources, financing activities, and custodial activities for the fiscal years then ended in conformity
with generally accepted accounting principles. Departmentwide issues are addressed in Audit
Report No. DOE/IG-FS-00-01, issued February 17, 2000.

        The purpose of this report is to inform Idaho management of matters that came to the
attention of the Office of Inspector General (OIG) during the audit of Idaho and Lockheed. Idaho
is responsible for the account balances entered into DOE's core accounting system.

SCOPE AND METHODOLOGY

       The audit was conducted from June 1999 through January 2000 at Idaho and Lockheed in
Idaho Falls, Idaho. Specifically, we examined internal controls, assessed compliance with laws
and regulations, and selectively tested account balances reported to DOE Headquarters as
necessary to achieve the departmentwide audit objective.

         The audit was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general and application control environment of certain financial systems and evaluated the
reliability of the data on a test basis.

        Because the audit was limited, it would not necessarily disclose all of the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system of
internal controls, errors or irregularities may nevertheless occur and not be detected. The issues
addressed in this report represent our observations of activities through the end of fieldwork on
January 31, 2000. Projection of any evaluation of the internal controls to future periods is subject
to the risk that procedures may become inadequate because of changes in conditions or the
effectiveness of the design and operation of policies and procedures may deteriorate.




                                                   2
        In addition to the audit work conducted by the OIG, an independent public accounting
firm reviewed the Overview Cycle at Idaho, including expanded EDP procedures. The OIG
considered all findings, generated as a result of the review, when preparing the departmentwide
report and the management report referred to in that report. The OIG is addressing issues
requiring local management attention in this report.

       Idaho management waived the exit conference.

OBSERVATIONS

        We observed that Lockheed had duplicated $52.2 million of environmental liabilities costs
for eight facilities when it reclassified costs during FY 1999. Management concurred with the
finding and recommendation and took corrective action to adjust the FY 1999 account balance.

      Part II of this report provides additional details concerning the audit results and
management's comments.




                                                 3
                                                     PART II

                                                AUDIT RESULTS

Environmental Liabilities: Duplication of Costs for the Test Reactor Area

         The Department's Environmental Liabilities account should be accurate. The account
included, however, duplicate estimated costs for the decontamination and decommissioning
(D&D) of eight facilities at the Test Reactor Area. This duplication of cost arose in 1999 when
Lockheed elected to reclassify the costs for 28 facilities from one portion of the liability account
to another. Lockheed correctly increased the receiving portion of the account for the costs of all
28 facilities. However, it decreased the other portion of the account for the costs of only 20
facilities. The net effect was to include $52.2 million of D&D costs for eight facilities in both
portions of the account, thereby overstating the environmental liability by that amount.2

Recommendation

        We recommend that the Chief Financial and Administrative Officer, Idaho Operations
Office, adjust the Environmental Liabilities account to eliminate the duplicated costs.

Management Comments

         Management concurred with the finding and recommendation. On November 4, 1999, a
post-closing "CP" adjusting entry was made, reducing the liability by $52.2 million. Therefore,
the updated financial statements as of September 30, 1999, present fairly the environmental
liability at Idaho and no further action is needed.

Auditor Comments

      Management's comments and corrective action are responsive to the finding and
recommendation.




2
    Specifically, the Project Baseline Summary for ID-ER-110 was overstated by $52.2 million.




                                                         4
                                                                   IG Report No.: WR-FS-00-02

                          CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?
2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                              Department of Energy
                              Washington, D.C. 20585

                              ATTN.: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

            U.S. Department of Energy Management and Administration Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
